OCr
■

..

A\Q
No.

IN THE SUPREME COURT OF THE UNITED STATES
Rodolfo Rivera Jr.
Petitioner,
v.

Officer John Granillo CSPD #3876
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
PETITION FOR WRIT OF CERTIORARI
SUpj^v1°lCTOURTL|EiRK

Appeal Case No.
20-1133, (D.C. No. 1:17-CV-01667-KMT) (D.Colo.)

Rodolfo Rivera Jr.
Pro-Se
P.O. Box 274
USAF Academy, CO 80840
(719) 243-4240
rudyriveraOO@gmail.com

RECEIVED
-AUG—3-2024-

I. Question[s] Presented For Review
The questions presented are whether the lower Court err in their decision
granting Qualified Immunity and Probable Cause on grounds, which conflicts with
this court, and other United States Court of Appeals decision on the same subject
matter relying on ambiguous law.
Whether the lower court has departed from the accepted and usual course of
judicial proceedings, misrepresenting and ignoring material facts of the case.
Whether the lower court is required to address issues raised by the plaintiff.

II. Table of Contents
Pgs.
I.

Questions Presented For Review

1

II. Table of Contents

n, m

III. Index to Appendices

111,1V

IV. Table of Authorities

IV, v, vi

A. Statute / Rules

Vll

B. Constitutional Provisions
V.

viii, 4, 5, 6, 7

Parties to the Proceedings

vi

VI. Corporate Disclosure Statement

vi

VII.

Related Cases

vi

VIII. Jurisdictional

Vll

IX.

Constitutional and Statutory Provisions

viii, 4, 5, 6, 7

X. Summary of the Facts

1

A. Whether the lower Court err in their decision granting
Qualified Immunity and Probable Cause on grounds
which conflicts with this court and other United States
Court of Appeals decision on the same subject matter
relying on ambiguous law.............................................. ..................... 1
B. Whether the lower court has departed from the accepted
and usual course of judicial proceedings ignoring material
facts of the case....................................................................................... 1
C. Whether the lower court is required to address issues raised by
Plaintiff..................................................................................................... 1
XI. Reason For Granting Writ of Certiorari,

1, 2, 3, 4, 5, 6, 7, 8, 9, 10

A. The lower Court Order and Judgment are appropriate for
this Court’s review; the lower court has entered a decision
that conflicts with the decisions of this Court and other
United States court of appeals on the same matter and relied
ii

on ambiguous law to render their decision
1, 2, 3, 4, 5, 6, 7
B. The lower court has departed from accepted and usual
course of judicial proceedings misrepresenting and ignored material
facts of the case............................................................
7,8
C. The lower courts do not address Plaintiffs issues of
Excessive Force when defendant twisted and raised Plaintiffs
handcuffs above his head and Plaintiffs Bill of Cost
8, 9, 10
XII.

Conclusion,

10
III. Index to Appendices

Appendix A. The United States Court of Appeals for the Tenth Circuit
Order and Judgment Denying Appeal
Before Matheson, Baldock, and Carson, Circuit Judges.
(February 18, 2021)...............................................................

la - 14a

Appendix B. The United States 10th Circuit Court of Appeals
Order Denying Petition for Rehearing (En Banc)
Before Matheson, Baldock, and Carson, Circuit Judges.
(April 5, 2021).....................................................................

15a-16a

Appendix C. The United States District Court Magistrate Judge
Order Granting Summary Judgment
Kathleen M. Tafoya Magistrate Judge
(March 13, 2020) at 2:21 PM MDT............................

17a-26a

Appendix D. The United States District Court Magistrate Judge
Order Final Judgment Granting Summary Judgment
Kathleen M. Tafoya Magistrate Judge
(March 13, 2020) at 4:40 PM MDT................................

27a - 29a

Appendix E. The United States Court of Appeals for the Tenth Circuit
Order Granting Extension of Time to file
Petition for Rehearing (En Banc)
Christopher M. Wolpert Clerk of Court
(March 3, 2021)...................................................................... 301-31a
Appendix F. The United States Court of Appeals for the Tenth Circuit
Order Granting Extension of Time to file Reply Brief
Christopher M. Wolpert Clerk of Court
(July 10, 2020)....................................................................... 32a — 33a

iii

Appendix G. The United States Court of Appeals for the Tenth Circuit
Order Denying Stay for Bill of Cost hearing in District Court
Before Hartz and Holmes, Circuit Judges.
(July 24, 2020)
34a — 36a
IV. Table of Authorities
Cases

Page(s)

Beck v. State of Ohio,
379 U.S. 89, 91, 85 S.Ct. 223, 13 L.Ed.2d 142 (1964)

4

Brower v. County of Inyo,
489 U.S. 593, 596-97, 109 S.Ct. 1378, 103 L.Ed.2d 628 (1989)

5

French v. City of Cortez,
361 F. Supp.3d 1011 FN 20

4,5

Koch v. City of Del City,
660 F.3d 1228, 1239 (10th Cir. 2011)

4

Michigan v. Chesternut,
486 U.S. 567, 108 S.Ct. 1975 (1988)

2,5

Poolaw v. Marcantel,
565 F.3d 721, 736 (10th Cir. 2009)

4,5

State of Colorado v. Rivera,
No. 15M6879, El Paso County District Court

7

Rivera v. Miller,
No. 16-cv-25, El Paso County District Court,

7

Rivera v. Granillo,
No. 17-cv-01667-KMT, U.S. District Court for the District of Colorado
Rivera v. Granillo,
No. 20-1133, U.S. Court of Appeals for the Tenth Circuit

1, 8,9

1,2

Stonecipher v. Valles,
759 F.3d 1134, 1141 (10th Cir. 2014)

2

Terry v. Ohio,
892 U.S. 17T9J06~(1968)

2
iv

Table of Authorities (Cont)
Cases

Page(s)

United States v. Aragones,
2011 WL 13174481/ Case No. 10 CR 2453 MV (2011)

2, 4, 5, 6, 7, 8

United States u. Arvizu,
534 U.S. 266, 273 (2002)

5, 6

United States v. Cortez,
449 U.S. 411, 417 (1981)

4, 5, 6

United States v. Davis,
94 F.3d 1465, 1469 n.l (10th Cir. 1996)

5

United States v. DeJear,
552 F.3d 1196, 1200 (10th Cir. 2009)

6

United States v. Lambert,
46 F.3d 1064, 1067 (10th Cir. 1995)

5

United States v. Lundstrom
616 F.3d 1108 (10th Cir. 2010)

3, 4, 5, 6

United States v. Lopez,
518 F.3d 790, 799 (10th Cir. 2008)

5,

United States v. Martin
613 F.3d 1295, 1302 (10th Cir. 2010)

2, 3,4

United States v. Simmons,
560 F.3d 98, 107 (2^ Cir.2009)

6

Umited States i>. Simpson,
609 F.3d 1140, 1146 (10* Cir. 2010)

6

United States v. Swindle,
407 F.3d 562, 568 (2d Cir. 2005)

5

United States v. Vanmeter,
278 F.3d 1156, 1162 (10* Cir. 2002)

2

United States v. Villagrana-Flores,
5'
V

Table of Authorities (Cont)
Page(s)
United States v. White,
584 F.3d 935, 945 (10th Cir. 2009)

4

Statutes & Rules
Fed. R. App. P. Rule 36
28 U.S.C. § 1254(1)......

Vll
,V11

Constitutional Provisions
United States Constitution, Amendment IV.
United States Constitution, Amendment XIV,

999 9 9 9 9 * •• 99 9 999

...vii, viii, 4, 5, 6, 7

99999999999999999999999*99999999

..vii, 7

V. Parties to the Proceeding
All parties appear in the caption of this case on the cover page.
VI. Corporate Disclosure Statement
There is no parent or publicly held company. Rules 14.1(b)(ii) and 29.6.
VII. Related Cases
Rivera v. Granillo, No. 20-1133, U.S. Court of Appeals for the Tenth Circuit.
Judgment entered April 5, 2021.
Rivera v. Granillo No. 17-cv-01667-KMT, U.S. District Court for the District of
Colorado. Judgment entered Mar. 13, 2020
Rivera v. Miller, No. 16-cv-25, El Paso County District Court Judgment entered
Mar 3, 2017
State of Colorado v. Rivera, No. 15M6879, El Paso County District Court. Judgment
Entered Feb 23, 2016.

vi

VIII. Jurisdiction
This case arises for the same factual circumstances presented in all federal and
state courts and is now before this court. It also involves the same parties, plaintiff
Rodolfo Rivera Jr. and defendant Officer John Granillo.
This is an appeal from the 10th Circuit Court of Appeals Order and Judgment
pursuant to Fed. R. App. P. Rule 36 which was entered on February 18, 2021, case
No. 20-1133 (D.C. 1:17-CV-01667-KMT) (D. Colo.). See Appendix A.
The 10th Circuit Denied Petition for Rehearing (En Banc) on April 5, 2021.
See Appendix B.
The United States Magistrate denied defendant’s motion to dismiss and later
granted defendant’s motion for summary judgement entering an Order and Final
Order on Mar 13, 2020, See Appendix C. and D
The El Paso County Fourth Judicial District Court awarded plaintiff
damages on Mar 3, 2017, Case No. 16CV25 from complainant making false charges
against plaintiff.
El Paso County 4th Judicial District Court Div. F entered an Order and
Judgment on Feb 23, 2016 where a jury of 12 acquitted Plaintiff of all charges in
Case No. 15M6879.
Jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1), timely filing
this petition for a writ of certiorari within ninety days of the 10th Circuit’s Order
and Judgment.

vii

IX. Constitutional and Statutory
Provisions Involved
United States Constitution, Amendment IV:
The 4th Amendment of the United States Constitution provides the
right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall be issued, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
United States Constitution, Amendment XIV:
The 14th Amendment of the United States Constitution provides that
all persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law, which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

viii

X. Summary of Facts
On Feb 18, 2021, case No. 20-1133, the lower court has entered an Order,
granting defendant probable cause and qualified immunity relying on ambiguous
law, which conflicts with the decisions of this Court and other United States Court
of Appeal’s on the same matter. (See App. A)
The lower court has departed from the accepted and usual course of judicial
proceedings, misrepresenting and ignoring material facts of this case.
Both lower courts did not address Plaintiffs Excessive Force claims and the
Bill of Cost claim.
On Mar 13, 2020, the lower district court issued an Order and a Final
Judgment granting defendant’s motion for Summary Judgment Case No 17-cv01667-KMT. The lower district court also awarded defendant costs. The plaintiff
has addressed this with the lower court in his Motion to Stay the district courts
proceedings address Bill of Cost. The lower court denied this motion on July 24,
2020. In the court considered this matter ‘Moot.” Plaintiff also addressed this in his
Petition for Rehearing (En Banc) which the lower court denied never addressing
this matter.
XI. Reasons for Granting Petition
I.
The lower Court Order and Judgment are appropriate for this Court’s
review; the lower court has entered a decision that conflicts with the
decisions of this Court and other United States court of appeals on the same
matter and relied on ambiguous law to render their decision.
On Feb 18, 2021, the lower court issued an Order and judgment
1

Denying plaintiffs appeal relying on ambiguous law, which conflicts with this court
and other court of appeals decision on the same subject matter.
The lower Court’s Order and Judgment states:
“[Pjrobable cause is a matter of probabilities and common sense
conclusions, not certainties.” United States v. Martin, 613 F.3d 1295,
1302 (10th Cir. 2010) (brackets in original; internal quotation marks
omitted). In addition, Granillo needed only “arguable probable cause,
“given the assertion of qualified immunity. Stonecipher u. Valles, 759
F.3d 1134, 1141 (10th Cir. 2014) (internal quotation marks omitted)....
This is ‘FALSE’ the Courts no longer relies on Martin reasoning, See
Michigan v. Chesternut, 486 U.S. 567, 108 S.Ct. 1975 (1988). Stating:
In Chesternut, the Supreme Court took note of its dicta in Terry v. Ohio, 392
U.S. 1, 19 n.16 (1968) that a seizure occurs “[ojnly when the officer, by means
of physical force or show of authority, has in some way restrained the liberty
of a citizen.” 486 U.S. at 573. The Court stated that it had since “embraced” a
different definition of “seizure”: “[T]he police can be said to have seized an
individual only if, in view of all of the circumstances surrounding the
incident, a reasonable person would have believed that he was not free to
leave”. Chesternut, 486 U.S. at 573. The Court draws attention to the correct
definition of “seizure” in light of its discovery of a recent Tenth Circuit case
analyzing facts arguably similar to those in the instant case, and applying
the Terry footnote’s definition of “seizure”. See United States v. Martin, 613
F.3d 1295 (10th Cir. 2010). There, the Tenth Circuit cited the Terry dicta for
the proposition that “[o]nly when the officer, by means of physical force or
show of authority, has in some way restrained the liberty if a citizen may we
conclude that a ‘seizure’ has occurred” Id. at 1300. Because this definition
was later rejected by the Supreme Court, the Tenth Circuit applies the
correct dicta as articulated in Chesternut, the Court finds that the Martin
opinion is an outlier that holds little authoritative value, See United States v.
VanMeter, 278 F.3d 1156, 1162 (10th Cir. 2002) (“we follow an earlier, settled
precedent over a subsequent derivation”)”. See Stonecipher, FN 3 and U.S. v.
Aragones 2011 WL 13285699 FN 3.
On Pg. 2 of the lower Court’s Order and Judgment, case No. 20-1133 the
court acknowledges Defendant arrested Plaintiff on suspicion of assault and
2

harassment. In determining whether the defendant had probable cause to seize and
arrested Plaintiff, this court must look into the defendant’s actions prior to
Plaintiffs seizure and arrest, due to the defendant’s credibility issues having
different version of the facts in his contradictory reports and deposition testimony,
which plaintiff raised in both lower courts, however, disregarded this matter.
Upon defendant, entering the plaintiffs residence defendant went
upstairs to plaintiffs room where he found Plaintiff in bed. During the line of
questioning defendant asked Plaintiff if anything happened the night before on 29
Oct 2015. Plaintiff responded, “Nothing happened the night before. The defendant
continued the same line of questioning about the night before. The Plaintiff stated
again, “Nothing happened the night before”. Plaintiff informed defendant he stated
all he knew and had nothing further to say. Defendant then told Plaintiff, to get
out of bed, once Plaintiff was up, defendant told Plaintiff to turn around, defendant
then handcuffed the Plaintiff behind his back, defendant then escorted Plaintiff to
his patrol car placing him in the back seat, which was full of a liquid, which plaintiff
later discovered to be urine. Defendant then returned to the residence where he
continued his investigation, this prolonged plaintiffs illegal detention longer than
the Lundstrom case.
Using the guidelines set by this this court and other courts in Lundstrom
616 F,3d 1120 and Martin 613 F.3d 1295 case it is at this point defendant is to have
probable cause to seize and arrest Plaintiff. Looking into the defendant’s actions,

3

one can conclude defendant lacked any evidence for probable cause to seize and
arrest Plaintiff.
This court has held when an arrest occurs, stating;
“Because an arrest is ‘the most intrusive of Fourth Amendment
seizures,’ an arrest is ‘reasonable only if supported by probable cause.’” Koch
v. City of Del City, 660 F.3d 1228, 1239 (10th Cir. 2011) (quoting United
States v. White, 584 F.3d 935, 945 (10th Cir. 2009)). The probable cause
inquiry is whether at the moment the arrest was made “the facts and
circumstances within [the officers] knowledge and of which they had
reasonably trustworthy information were sufficient to warrant a prudent
man in believing that the petitioner *1040 had committed or was committing
an offense.” Beck v. State of Ohio, 379 U.S. 89, 91, 85 S.Ct. 223, 13 L.Ed.2d
142 (1964) (citations omitted)”. See French v. City of Cortez, 361 F. Supp.3d
1011 HN 48 / Case No. 16-CV-00287-JLK (2019).
While there is no litmus-paper test for determining when an
investigative detention enters the realm of an arrest, we have stated an
arrest is distinguished from an investigative detention by the involuntary,
highly intrusive nature of the encounter. The use of firearms, handcuffs, and
other forceful techniques, for example, generally indicate an investigative
detention had evolved into an arrest” Lundstrom, 616 F.3d at 1120 (internal
quotation marks, citation, and alterations omitted). See French 361
F.Supp.3d 1011, FN 21.
In Martin 613 F.3d 1295, the U.S. Supreme Court Opinion No. 7 they
state: “In light of their legal principles governing us, when was Mr. Martin
seized? We conclude it wasn’t until the officers took hold of him and placed
him in *1301 handcuffs...’”
The court held for reasonable suspicion,
The Court must only consider those facts that occurred prior to the
seizure to determine whether it was supported by reasonable suspicion. U.S.
v. Aragones 2011 WL 13285699 id at 529.
The Court held in Aragones Officer Sandy's investigative detention
comported with the Fourth Amendment only if he possessed “a reasonable
suspicion, grounded in specific and articulable facts, that [Defendant] ... was
involved in ... a crime in progress [or] a completed [crime].” Poolaw u.
Marcantel, 565 F.3d 721. 736 (10th Cir. 2009) (citations omitted). The Court
may find that Officer had reasonable suspicion to seize Defendant only if he
had “a particularized and objective basis for suspecting [Defendant] of
4

criminal activity.” United States v. Villagrana-Flores, 467 F.3d 1269, 1275
(10th Cir. 2006)
An officer may not rely on a “mere hunch” to justify an investigative
detention. Poolaw, 565 F.3d at 752. However, “the level of suspicion required
for reasonable suspicion is considerably less than proof by a preponderance of
the evidence.” United States v. Lopez, 518 F.3d 790, 799 (10th Cir.
2008) (citation omitted).
In conducting the reasonable suspicion calculus, an officer must look to
the totality of the circumstances, and he may “draw on [his] own experience
and specialized training to make inferences from and deductions about the
cumulative information available to [him] that might well elude an untrained
person.” Arvizu, 534 U.S. at 273 (quotation omitted).
The court held for a Seizure,
A Fourth Amendment seizure does not occur whenever there is a
governmentally caused termination of an individual's freedom of movement
(the innocent passerby)..., but only when there is a governmental
termination of freedom of movement through means intentionally applied.”
Brower v. County of Inyo, 489 U.S. 593, 596-97, 109 S.Ct. 1378, 103 L.Ed.2d
628 (1989). See French v. City of Cortez 361 F. Supp.3d 1011 FN 20.
In determining the seizure of someone, the Court addressed this in the
Aragones case, finding “prior to analyzing these asserted factors in the order
listed by the Government the Court must determine when precisely
Defendant was seized. The Government may not rely on facts occurring after
the seizure to justify the seizure at its inception. United States v. Davis, 94
F.3d 1465, 1469 n.l (10th Cir. 1996) (“if the officers' request would have made
a reasonable person feel that he or she was not free to leave, then the
investigative detention began at exactly that point, and thus Davis'
subsequent refusal to comply with the officers' order to stop could not furnish
the basis for the [seizure]”); United States v. Swindle, 407 F.3d 562, 568 (2d
Cir. 2005) (“The settled requirement is, of course, that reasonable suspicion
must arise before a search or seizure is actually effected.... [A]n illegal stop
cannot be made legal by incriminating behavior that comes after the suspect
is stopped.”); see also United States v. Lambert, 46 F.3d 1064, 1067 (10th Cir.
1995) (framing question as “whether the officers had reasonable, articulable
suspicion of criminal activity at the time of the seizure”). A seizure occurs
when, “in view of all of the circumstances surrounding the incident, a
reasonable person would have believed that he was not free to
leave” Michigan v.Chesternut, 486 U.S. 567, 573 (1988).-“also see U.S. v.
Aragones, 2011 WL 13285699, Lundstrom, 616 F.3d 1108.
In the Aragones case, the Court states: that Defendant was seized
within the meaning of the Fourth Amendment at the moment Officer Sandy
-order-ed-bim-to-remove-his-hand-from-his-poeketr-as-opposed-tQ-the^noment—
5

when the officer took control of his arm. See United States v. Simmons, 560
F.3d 98, 107 (2d Cir. 2009) (defendant in apartment building common area
seized after he complied with officers' second request to “hold on a second,”
and defendant's subsequent refusal to remove hands from pockets was
irrelevant to reasonable suspicion analysis). See U.S. v. Aragones 2011 WL
13285699. (Discussions II (A)).
In distinguishing the difference between a Seizure and arrest,
the court held.
An investigatory stop is a “seizure” within the meaning of the
Amendment. United States v. Simpson, 609 F.3d 1140, 1146 (10th Cir. 2010).
Such a stop is “reasonable only if ‘justified by some objective manifestation
that the person stopped is, or is about to be, engaged in criminal activity.’
” Id. (quoting United States v. Cortez, 449 U.S. 411, 417 (1981)). Whereas an
arrest requires probable cause of criminal activity, an investigatory stop need
only be based on the lesser standard of reasonable suspicion. Id. This
requires an officer to articulate “a particularized and objective basis for
suspecting legal wrongdoing.” United States v. Arvizu, 534 U.S. 266, 273
(2002). The officer must point to specific, articulable facts to support his
conclusion that he had reasonable suspicion to conduct the stop, and the
Government may further point to “rational inferences drawn from those facts
[that] give rise to a reasonable suspicion a person has or is committing a
crime.” United States v. DeJear, 552 F.3d 1196, 1200 (10th Cir.
2009) (quotation omitted).
At the time defendant seized and arrested plaintiff placing him in handcuffs,
defendant did not have specific, articulable facts to support his conclusion that he
had reasonable suspicion or probable cause to arrest plaintiff; defendant had yet to
complete his investigation. Plaintiff was not a flight risk nor danger to anyone;
plaintiff was cooperative throughout the entire investigation. The use of handcuffs
is greater than a de minimus intrusion Lundstrom 616 F.3d 1108 at 3233. In
conjunction with not having probable cause to arrest plaintiff, prior to removing the
handcuffs defendant twisted them clockwise and raised them above plaintiffs head

6

injuring plaintiff in the process requiring the officers to take plaintiff to the hospital
for the injuries.
By the defendants action he has clearly violated the Plaintiffs IV and XIV
constitutional amendment rights to be secure in their persons, houses...against
unreasonable searches and seizures... no Warrants shall be issued, but upon
probable cause supported by oath... and ...deny to any person within its jurisdiction
the equal protection of the laws.
II.

The lower courts has departed from accepted and usual course of
judicial proceedings and ignored material facts of the case.

In the instant case, just as in ‘Aragones’ evidentiary hearing which showed
numerous inconsistencies in defendant’s testimony and reports filed, this Court
found in the Aragones’ case the officer’s testimony ‘not credible’. However, with
these exact same set of facts the lower court found the officers testimony ‘credible’
contradicting this court’s opinion on these exact same facts, granting him qualified
immunity and probable cause.
In the instant case a Colorado state court and a jury of 12, case No. 15M6879,
came to a different conclusion than the lower court regarding officers contradictory
reports and testimony, discounting the officers testimony as not credible citing with
this court.
The jury found the plaintiff ‘Not Guilty’ on all charges. In another Colorado
court case No. 16cv25 the respondent paid the Plaintiff damages for the false
charges made against Plaintiff. The two Federal court did acknowledge plaintiff
7

acquittal of all charges; however, the lower courts disregarded the facts of the case
and came to the opposite conclusion of Aragones and the two Colorado state Courts
using defendant’s testimony to justify the lower courts Order and Judgment.
The lower court also mischaracterizes the sequence of events, in the lower
courts Order and Judgment Pg.5, para 2, the lower court states: “Finally, Granillo
spoke with Rivera... “Giving the impression the Defendant spoke with the Plaintiff
last when defendant actually spoke with plaintiff at the beginning, upon defendant
entering the plaintiffs residence.
In the Aragones case when the court looked into Officer Sandy’s version of
facts from Officers testimony and reports too witnesses the court found the officers
version was not credible and he left important facts out which were relevant to that
case. This is exactly what happened in the Plaintiffs case the defendant’s reports
contradict his deposition testimony and the defendant left out crucial information to
obtain the affidavit for arrest.
III.

The lower courts do not address Plaintiffs issues, Use of Excessive Force
when defendant twisted and raised Plaintiffs handcuffs above his head and
Plaintiffs Bill of Cost.
In the lower courts Order and Judgment, case No. 17-cv-01667-KMT (App. A)

Pg. 9, FN 3, the lower court acknowledges the lower District Court’s Summary
Judgment does not address defendant twisting and raising the plaintiffs handcuffs
above plaintiffs head prior to removing them injuring plaintiff in the process

8

Brief, and throughout this entire case. The lower court also leaves out defendant
twisting the handcuffs clockwise.
In the Court’s Order and Judgment Pg. 12, para 3 - Pg. 13 the court
states: “Mr. Rivera’s attorney’s fee argument is not a misnamed attack on
costs...Because the district court made no fee award, this argument is moot.” (See
App. A)
On Mar 13, 2020 at 2:21 & 4:40 PM MDT, the lower District Court entered an
Order and Final Judgment Order case No. 17-cv-01667-KMT, granting defendants
Motion for Summary Judgment. In the Order Pg. 9 para. 5, and the Final Judgment
Order Pg. 1, para 3, states: defendant is awarded his costs. (See App. C & D).
On July 24, 2020, the lower court denied plaintiffs Motion to ‘Stay’
lower District court’s Bill of Cost hearing. (See App. G). Had the lower court granted
it, this would have allowed plaintiff the opportunity to concentrate solely on his
Reply Brief. In the District Court’s Bill of Cost hearing the Court Ordered Plaintiff
to pay $3568.95. In conjunction with the Motion to ‘Stay the plaintiff has raised this
issue in his Petition for Rehearing (En Banc), Pg. 14 Para 2, the plaintiff clearly
states ‘Bill of Cost’ in the caption. Plaintiff also states in that caption “... the
District Courts Order requiring him to pay Defense Fees.” The lower court never
address Plaintiffs Bill of Cost issue.
The plaintiff filed Petition for Rehearing (En Banc) on 18 Mar 2021. In that
Petition, Pg. 14, para 2, plaintiff addressed the Bill of Cost with the lower court
^t-at-ing“Plaintiff-is-ordered-to-pay-$3568:95-a-nd-ask-ed-thfs-€ourt-to-a4dress4his9

issue.” The lower court was aware the lower District Court made this decision. On
Apr 5, 2021, the lower court issued an Order Denying Petition for Rehearing (En
Banc) never addressing the plaintiffs Petition.
XII. Conclusion
For the foregoing reasons, the plaintiff prays the court grant plaintiffs
Petition for Writ of Certiorari and reverse the 10th Circuit Court of Appeals Order.
Respectfully submitted this 28th day of July 2021

Rodolfo Rivera Jr.
Pro-Se
P.O. Box 274
USAF Academy, CO 80840

,r--

10

